    October 21, 2003




Audit Oversight

Defense Contract Audit Agency
Quality Assurance Review of “All
Others” Audits
(D-2004-6-001)




           Office of the Inspector General
           of the Department of Defense
 Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.



  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AICPA                 American Institute of Certified Public Accountants
APFINCAP              Audit Program for Detailed Financial Condition Risk Assessment
                         and Financial Capability Audit
APPS                  Audit Planning and Performance System
CAM                   DCAA Manual 7640.1, “DCAA Contract Audit Manual”
CAS                   Cost Accounting Standards
DCAA                  Defense Contract Audit Agency
DMIS                  DCAA Management Information System
ESC                   Executive Steering Committee
FAO                   Field Audit Office
FAR                   Federal Acquisition Regulations
GAO                   General Accounting Office
GAS                   Government Auditing Standards
IG DoD                Inspector General of the Department of Defense
MFR                   Memorandum for Record
MRD                   Memorandum for Regional Directors
PASS                  Post-award Selection System
PCIE                  President’s Council on Integrity and Efficiency
RQA                   Regional Quality Assurance Division
SAP                   Standard Audit Program
          Office of the Inspector General of the Department of Defense
Report No. D-2004-6-001                                                 October 21, 2003
   (Project No. D-2002-OA-0199)

             Defense Contract Audit Agency Quality Assurance
                      Review of “All Other” Audits

                                  Executive Summary

Who Should Read This Report and Why? The Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Defense Contract Audit Agency (DCAA)
Executive Steering Committee should read this report. The report discusses the status of
the DCAA quality assurance program and the quality assurance review of “all other”
audits.

Background. An audit organization’s internal quality assurance program is an integral
part of its overall management program. This is the fourth in a series of reports on the
DCAA headquarters-led quality assurance program. DCAA selected “all other,” one of
four categories of audits, as the fourth category to be covered by the DCAA
headquarters-led quality assurance reviews. For FY 2002, DCAA completed
40,045 assignments, valued at $250.6 billion, with net savings of $2.5 billion. DCAA
incurred $387.9 million in total operating costs to provide the audit services. As of
September 30, 2002, the DCAA workforce consisted of 3,534 auditors.

Results. Although the results of the DCAA quality assurance reviews of “all other” audit
assignments were generally valid, the review did not include all significant audit areas
and did not identify some policy issues. Specifically, when planning the quality
assurance review of “all other” audits, DCAA did not include progress payment audits in
the scope of the review for five of the six regions. DCAA also did not include in their
review the cycling of financial condition risk assessments nor the selection process for
post-award audits. In addition, DCAA did not adequately review agreed-upon
procedures assignments and did not identify an inadequacy in its accounting system
survey guidance. As a result, DCAA did not identify a significant noncompliance related
to the proper reporting of agreed-upon-procedures assignment as well as other policy
issues and, therefore, could not initiate corrective actions to ensure proper cycling of
financial capability reviews, selecting post-award audits, and adequate performing of
accounting system survey assignments.

Management Comments. DCAA concurred with our recommendations.
Table of Contents

Executive Summary                                                                  i

Background                                                                         1

Objectives                                                                         2

Finding
     Planning and Performing the Quality Assurance Review of “All Other” Audits    3

Appendixes
     A. Scope and Methodology                                                     15
          Prior Coverage                                                          17
     B. Structure of Defense Contract Audit Agency Quality Assurance
          Program and Quality Control System                                      18
     C. “All Other” Assignment Codes and Descriptions                             26
     D. Results of Defense Contract Audit Agency Quality Assurance Review
          of “All Other” Audits                                                   28
     E. Report Distribution                                                       31

Management Comments
     Defense Contract Audit Agency                                                33
Background
            An audit organization’s internal quality assurance program is an integral part of
            its overall management program. This is the fourth in a series of reports on the
            Defense Contract Audit Agency (DCAA) quality assurance program. The
            “Government Auditing Standards” (GAS), issued by the Comptroller General of
            the United States, requires that each audit organization have an appropriate
            quality control system and undergo an independent external quality control
            review at least once every 3 years. The objective of an external quality control
            review is to determine whether the organization’s internal quality control system
            is properly implemented and operating effectively to provide reasonable
            assurance that established policies, procedures, and auditing standards are being
            followed.

            President’s Council on Integrity and Efficiency. The President’s Council on
            Integrity and Efficiency (PCIE) was established to identify, review, and discuss
            areas of weakness and vulnerability in Federal programs and operations; to
            develop plans for coordinated, Government-wide activities that address those
            issues; and to promote economy and efficiency in Federal programs and
            operations. As part of that mandate, the PCIE developed the “Guide for
            Conducting External Quality Control Reviews of the Audit Operations of Offices
            of Inspector General” (PCIE Guide), January 2002, as a tool to promote
            consistency in conducting quality control reviews in accordance with GAS. The
            PCIE Guide is advisory and is not intended to replace a reviewer’s professional
            judgment regarding the approach or scope of a review. The PCIE Guide includes
            a variety of checklists that organizations can use as tools when conducting quality
            control reviews. DCAA adapted the PCIE Guide for its quality assurance
            program. DCAA uses the approach recommended in the PCIE Guide when
            conducting its quality assurance reviews. As part of the process, DCAA drafted
            its own checklist (DCAA Checklist) by adapting questions from PCIE Appendix
            E, “Financial Statement Presentation and Disclosure Checklist,” (PCIE Checklist
            E), and PCIE Appendix F “Checklist for Review of Individual Performance
            Audits,” (PCIE Checklist F), for use in its internal quality assurance reviews.

            DCAA Organization and Functions. DoD Directive 5105.36, “Defense
            Contract Audit Agency,” June 9, 1965,1 establishes DCAA as a separate
            organization under the direction, authority, and control of the Under Secretary of
            Defense (Comptroller)/Chief Financial Officer. The primary mission of DCAA is
            to perform contract audits for DoD. In addition, DCAA is responsible for
            providing accounting and financial advisory services regarding contracts and
            subcontracts to DoD Components that perform procurement and contract
            administration duties. Also, DCAA provides contract audit services for non-DoD
            Federal organizations on a reimbursable basis. For FY 2002, DCAA completed
            40,045 assignments, valued at $250.6 billion,2 with net savings of $2.5 billion.
            DCAA incurred $387.9 million in total operating costs to provide the audit

1
    DoD Directive 5105.36 was last updated on February 28, 2002.
2
    This amount represents dollars that DCAA examined or reviewed for forward pricing assignments,
     incurred cost audits, and special audits (for example, terminations, claims, and Government facility
     rentals).

                                                        1
           services. As of September 30, 2002, the DCAA workforce consisted of
           3,534 auditors. DCAA audit guidance is contained in the DCAA Manual 7640.1,
           “DCAA Contract Audit Manual” (CAM).3 Specifically, CAM section 2-101
           states that GAS is applicable to DCAA. DCAA ensures compliance with the
           applicable auditing standards throughout audit planning and performance
           activities by supplementing audit guidance in the CAM with standard audit
           programs. Between CAM updates, DCAA headquarters notifies managers of new
           and revised audit guidance by issuing Memorandums for Regional Directors
           (MRDs) that are usually incorporated in the next CAM update. DCAA has a
           quality control system that is implemented at all levels of the organization.
           Appendix B describes the structure of the DCAA quality control system.

           “All Other” Audits. DCAA initiated the quality assurance review of FY 2001
           “all other” audits, its fourth headquarters-led quality assurance review, in
           August 2001. In FY 2001, DCAA completed 42,649 assignments, of which
           20,858 (49 percent) were “all other” assignments. In addition, DCAA auditors
           expended about 1.3 million hours performing “all other” audits. Assignments
           included in the “all other” category include all types of assignments not covered
           under the reviews of forward pricing, internal control, and incurred cost
           assignments. See Appendix C for a complete listing of the types of assignments.

           Results of DCAA Quality Assurance Review of “All Other” Audits and
           Inspector General of the Department of Defense Retesting. The DCAA
           quality assurance review of “all other” audits identified significant
           noncompliances with GAS for which DCAA has either implemented or initiated
           corrective action. Specifically, DCAA identified issues related to due
           professional care, planning, supervision, evidence, compliance with laws and
           regulations, and reporting. We conducted reviews of assignments that DCAA did
           not review at three Field Audit Offices (FAOs) and performed retesting at two of
           those FAOs. We concluded that the same type of systemic noncompliances did
           exist and that the DCAA results were generally valid. Resolving the issues that
           DCAA identified is important to ensure that quality audits are performed in
           accordance with GAS and that quality audit reports are issued. See Appendix D
           for a discussion of the significant noncompliances and the corrective actions that
           DCAA implemented or initiated.

Objectives
           The objective for this oversight review was to review the status of the DCAA
           quality assurance program and to assess how DCAA performed the quality
           assurance review of “all other” audits. We will make an overall determination as
           to whether the DCAA quality control system as a whole provides reasonable
           assurance that established policies, procedures, and applicable auditing standards
           are being followed after completing our external quality control review. See
           Appendix A for a discussion of the scope, methodology, and prior coverage.



3
    DCAA Manual 7640.1 is updated every 6 months. As of September 2003, the current version is
    July 2003.

                                                    2
                  Planning and Performing the Quality
                  Assurance Review of “All Other” Audits
                  Although the results of the DCAA quality assurance reviews of “all other”
                  audit assignments were generally valid, the review did not include all
                  significant audit areas and did not identify some policy issues.
                  Specifically, when planning the quality assurance review of “all other”
                  audits, DCAA did not include progress payment audits in the scope of the
                  review. DCAA also did not include in their review the cycling of
                  financial condition risk assessments or the selection process for post-
                  award audits. In addition, DCAA did not adequately review agreed-upon
                  procedures assignments and did not identify an inadequacy in its
                  accounting system survey guidance. As a result, DCAA did not identify a
                  significant noncompliance related to the proper reporting of agreed-upon-
                  procedures assignment as well as other policy issues and, therefore, could
                  not initiate corrective actions to ensure proper cycling of financial
                  capability reviews, selecting post-award audits, proper reporting of
                  agreed-upon procedures assignments, and adequate performing of
                  accounting system survey assignments.

Selection of FAOs and “All Other” Audit Assignments
          DCAA used a reasonable method for selecting the FAOs for review during the
          internal quality assurance review of “all other” audits. However, the criteria used
          to pick the categories of audits to be reviewed did not properly consider all the
          risks involved with each type of audit. Therefore, DCAA did not properly assess
          the risk associated with progress payment audits and did not include them in the
          scope of their review. However, Field Detachment Quality Assurance Division
          did select two progress payment assignments for review because of the lack of
          “all other” audit activity at the Field Detachment FAOs visited.
          Selection of FAOs. For the internal quality assurance review of “all other”
          audits, DCAA developed a methodology for selecting which FAOs would be
          reviewed. First DCAA identified the 20 FAOs that had not been visited in the
          previous headquarters-lead quality assurance reviews performed since May 1999
          (forward pricing, internal controls, and incurred cost audit reviews). Of the
          20 FAOs, DCAA selected 16 FAOs to be reviewed. Because Field Detachment
          had only one FAO not visited previously, DCAA selected a second FAO to be
          reviewed. The 17 FAOs reviewed represented 21.5 percent of the 79 DCAA
          FAOs existing as of June 20024. Once FAOs were selected, DCAA selected the
          assignments to be reviewed at each FAO.

          Selection of Assignments. DCAA determined what assignment codes or
          categories of audits should be reviewed based on whether the assignment code
          accounted for at least 10 percent of the total agency-wide DCAA hours charged


4
    As of July 2003, 82 DCAA FAOs existed.

                                               3
           for “all other” audit work5. See Appendix C for a list of all DCAA assignments
           codes/audits considered. Using the 10 percent criteria, DCAA selected the
           following audits and associated assignment codes for review and grouped them
           into categories.
               • 10500/10600 – Operation Audits and follow-ups on Operation Audits
               • 17100/17200 – Terminations and Other Claims
               • 17600 – Financial Capability Audits
               • 17900 – Other Requested Special Audits
               • 19200/19400/19500 – Cost Accounting Standards (CAS) Noncompliance,
                    CAS Compliance, CAS Cost Impact
               • 42000 – Post-award Audits6

           Next, DCAA judgmentally selected individual audit assignments from the
           assignment codes for each FAO to be visited. DCAA first selected only
           assignments that issued reports in the designated assignment codes. Second, they
           selected one assignment with the highest hours incurred, highest cost avoidance
           or questioned costs, or largest dollars examined from each assignment code
           category. Finally, DCAA selected assignments that provided a cross-section of
           FAO audit teams and supervisors and had at least one assignment from each of
           the six assignment codes. Based on the above-described methodology, DCAA
           selected 121 assignments for review, averaging seven assignments at each FAO.

           Risk Factors. The selection criteria that DCAA used did not consider all
           applicable risk factors. For instance, in a meeting between the DCAA and
           the Inspector General of the Department of Defense (IG DoD) on
           February 7, 2002, we told DCAA that we consider progress payments a
           high-risk area for DoD and should be reviewed. However, DCAA did not
           select any progress payment assignments except for the two Field
           Detachment FAOs.7 Although DCAA performed 1,413 progress
           payments audits expending 49,854 hours in FY 2001, DCAA did not
           include progress payments in their reviews because these assignments did
           not meet the 10 percent materiality test. Therefore, the IG DoD performed
           a quality assurance review of five progress payment assignments.

                   Importance of Other Risk Factors. The inclusion of other risk factors in
           the selection process for “all other” audits was more important than in prior
           reviews because of the nature of “all other” audits. For the previous
           headquarters-led quality assurance reviews, DCAA grouped audit assignments
           together based not only on the audit area covered but also on the interrelationship
           of the various audit areas. Therefore, the audits included in the “all other”
           category were the remaining types of audits that DCAA performs. As such, they
           represent audit

5
    An assignment code is a five-digit identifier recognized by the DCAA Management Information System
    (DMIS) as specifying a discrete audit scope or type of audit.
6
    Post-award audits are also known as defective pricing reviews. These reviews are conducted to
    determine whether the contractor complied with the Truth in Negotiations Act and disclosed current,
    accurate, and complete cost or pricing data.
7
    Field Detachment Quality Assurance Division included progress payment assignments because of the
    lack of variety of “all other” audits performed by the FAOs.

                                                      4
areas with very little in common. For instance, “all other” audits included agreed-
upon procedures engagements as well as financial capability reviews,
Government facility rental payments, and post-award reviews.
        Consideration of Other Risk Factors. By including only audits from
assignment codes that represented at least 10 percent of the total “all other”
workload, DCAA did not consider all applicable risk factors. For instance,
DCAA did not consider risk factors such as audit complexity, audit sensitivity,
status of audit guidance, or changes in auditing standards. DCAA also did not
consider risk factors identified by other organizations such as General Accounting
Office (GAO) designated high-risk areas, DoD management risks, or
reimbursable customers’ concerns. In addition, assignments with low hours
charged or no cost avoidance or questioned costs may be high risk because the
audit staff may not have considered the assignment significant; therefore, quality
controls may not have been properly implemented.

         Risk Assessment Process for the Next 3-Year Cycle. DCAA
consistently used the criteria of highest hours expended and highest dollars
reviewed or questioned on the quality assurance reviews in this 3-year cycle.
Although this methodology was generally acceptable for the first cycle, DCAA
should consider a more sophisticated selection process for the next 3-year quality
assurance review cycle that will include other risk factors. DCAA should perform
a risk assessment for each review, considering the specific risks that apply to each
audit area being reviewed. DCAA should also identify other risk factors for
selecting the FAOs. The risk assessment should enable DCAA to determine the
criteria for selecting FAOs and assignments. Examples of other risk factors are:

   •   previously identified differences;
   •   significant changes in management or staff;
   •   FAO familiarity with the audit type;
   •   recent guidance or audit program changes;
   •   assignments with a low number of hours expended and a high number of
       dollars questioned;
   •   assignments with high hours expended and low or no dollars questioned;
   •   new audit areas; and
   •   relationship to GAO high-risk areas or DoD management challenges.

        Coverage of Reimbursable Audits. DCAA did not additionally consider
reimbursable work when selecting the audits to be reviewed. Because DCAA
included all audits performed in the selection universe, they did include
reimbursable audits. Reimbursable work presents a higher risk because it may
require a familiarity or understanding of regulations and policies unique to the
non-DoD agency not previously identified or considered by the auditor. Also,
DCAA customers should be assured that the quality of the work performed for
their agency was reviewed by the internal quality assurance team. Therefore,
DCAA needs to ensure that a cross-section of reimbursable audits performed for
other agencies are reviewed as part of the headquarters-led internal quality
assurance reviews.

                                     5
            Result of Improving Risk Assessment and Selection Process. By
    performing a thorough risk assessment and developing a more sophisticated
    selection process, DCAA will reduce the risk of not identifying significant or
    systemic noncompliances with standards and policies. In addition, DCAA will
    ensure that the quality control program is equally effective for all audits, not just
    those that represent the most significant audit effort by DCAA.


Review of Audit Planning Processes
    DCAA generally has included FAO implementation of other audit planning
    processes in its reviews. For instance, DCAA reviewed CAS cycling in this
    internal quality assurance review and the Internal Control Reporting System and
    cycling of internal control reviews during their quality assurance review of
    internal control audits. DCAA did not review all the audit planning processes
    related to “all other” audits. Specifically, DCAA did not review the cycling of
    financial condition risk assessments and the selection process for post-award
    audits at the FAOs they visited.

    Review of Cycling of Financial Condition Risk Assessments. DCAA did not
    review the cycling of financial condition risk assessments. DCAA stated that this
    was an oversight and that reviewing procedures for cycling financial condition
    risk assessments was never considered when they planned their quality assurance
    review of “all other” audit assignments.

            Financial Condition Risk Assessments and Audits. Contractor
    financial condition risk assessments are performed to determine whether or not
    the auditor should perform a financial capability audit. Financial capability audits
    are performed to determine whether the contractor is financially capable to
    perform on Government contracts and, therefore, are important to the contracting
    officer’s ability to determine contractor responsibility and to protect the
    Government’s interests. A contractor’s financial difficulties could lead to
    contract nonperformance, monetary loss to the Government, and inefficient use of
    contracting resources.

           DCAA Guidance on Cycling Financial Condition Risk Assessments.
    DCAA FAOs are required to cycle performance of financial condition risk
    assessments at their contractors. Specifically, CAM 14-303 states:
               FAOs will perform an annual financial condition risk assessment of the
               contractor's financial condition for major and nonmajor contractors, unless
               a risk assessment was performed and documented in other audits during the
               year. . . . A detailed financial condition risk assessment should be
               performed cyclically every three years with modified financial condition
               risk assessments performed in the years when a detailed risk assessment is
               not performed. . . . If the risk assessment so indicates, audit plans will be
               developed for completing the financial capability audit (DIIS audit program
               - APFINCAP, “Audit Program for Financial Capability Audit”).

          Result of Not Reviewing the Cycling of Financial Condition Risk
    Assessments. Because DCAA did not review cycling of financial condition risk
                                               6
assessments, we performed a limited review at the three FAOs we visited to
determine whether the assessments had been properly cycled as required. The
FAOs reviewed did not have adequate procedures for cycling these assessments.
In addition, the FAOs would have difficulty tracking the required cycling since no
centralized system existed. Because DCAA did not include this area in the scope
of their review, they did not identify a weakness in the cycling process, it was not
reported to the Executive Steering Committee (ESC), and corrective action was
not implemented. Therefore, required financial capability reviews may not have
been performed.

Review of Selection Process for Post-award Audits. DCAA did not review the
selection process for post-award audits at the FAOs they visited. DCAA stated
that a review of the FAO post-award selection process was not one of the
objectives of the “all other” review.

        Post-award Audits. Post-award audits are performed to determine
whether the contract price was increased by a significant amount because the
contractor did not submit or disclose accurate, complete, and current cost or
pricing data. As discussed in CAM 14-102 c.

DCAA has set up a formal process for selecting pricing actions for post-award
audits. This is accomplished during the DCAA annual planning process to
determine the program plan.

       DCAA Guidance on the Selection of Pricing Actions for Post-award
Audit. DCAA FAOs are to perform post-award audits based on the annual
requirements and selection process issued by headquarters. Specifically,
CAM 14-113.1 states:

           FAOs and regions develop their annual defective pricing requirements plan
           using the Planning Manual and specific instructions issued by
           Headquarters. FAOs develop and maintain a universe of eligible actions
           from which they select actions for audit. The specific Headquarters
           instructions explain how to estimate contractor risk and determine the
           number of pricing actions for post-award audit.

DCAA FAOs use the Post-award Selection System (PASS) for identifying the
potential risk that contracts may be defectively priced. Based on risk
determinations and leads within each FAO, the FAO uses the PASS matrix to
determine the number of required pricing action selections. These actions will
then be programmed for post-award audit.

        Result of Not Reviewing the Selection Process for Post-award Audits.
Because DCAA did not review the post-award selection process, DCAA and its
customers are not assured that the most appropriate pricing actions are being
selected for post-award audits. Inappropriate selections could cause DCAA to
inefficiently use its limited resources. In addition, inappropriate selections may
result in a disproportionate number of negative findings, thereby implying that
contractors are fully complying with the Truth in Negotiations Act.



                                          7
            Quality Assurance Review of Agreed-upon Procedures
              Assignments
            During this quality assurance review, DCAA did not adequately review agreed-
            upon procedures assignments. DCAA did not sufficiently modify the DCAA
            Checklist or its criteria to properly reflect the unique standards that apply to
            agreed-upon procedures. As a result, DCAA did not identify significant reporting
            issues that resulted in noncompliances with applicable GAS; therefore, DCAA
            could not initiate corrective actions to ensure adequate reporting on the
            application of agreed-upon procedures assignments.

            Performing the Review of Agreed-Upon Procedures Assignments. DCAA did
            not identify several deficiencies in the agreed-upon procedure reports.8 The
            checklist questions and criteria that DCAA used to review the assignments were
            not sufficiently modified or adapted for agreed-upon procedures reports. DCAA
            originally drafted its own checklist (DCAA Checklist) by adapting questions from
            PCIE Appendix E, “Financial Statement Presentation and Disclosure Checklist,”
            (PCIE Checklist E), and PCIE Appendix F “Checklist for Review of Individual
            Performance Audits,” (PCIE Checklist F), for use in its internal quality assurance
            reviews. The PCIE Checklist E and F did not contain any questions for reviewing
            agreed-upon procedures engagements. In addition, DCAA did not add any
            questions or criteria specifically for agreed-upon procedures.

            Standards Applicable to Agreed-Upon Procedures Assignments. Agreed-
            upon procedures assignments are attestation engagements9 in which the auditor
            performs specific procedures on subject matter using criteria that have been
            mutually agreed to by the requester and the auditor. Agreed-upon procedures
            assignments are not audits; therefore, different standards apply to their
            performance. GAS covers agreed-upon procedures engagements in the financial
            related audit section. GAS chapters 4 and 5 dealing with financial related audits
            incorporate certain American Institute of Certified Public Accountants (AICPA)
            standards10 addressing specific types of financial related audits.




8
    The DCAA agreed-upon procedures reports reviewed were performed under assignment code 17900.
    DCAA also performs agreed-upon procedures assignments under other assignment codes as well.
9
    In an attestation engagement, auditors report on subject matter or on an assertion about subject matter that
    is the responsibility of another party. There are three levels of attestation: an examination, a review, and
    an agreed-upon procedures.
10
      The AICPA has issued auditing and attestation standards that apply in financial audits. GAS
     incorporates the AICPA standards unless specially excluded by formal announcement.

                                                        8
       Requirements for Performing Agreed-Upon Procedure Assignments.
The AICPA standards as incorporated in GAS 4.39 require that an agreed-upon
procedures engagement meet certain conditions including:

       •   The auditor may not agree to perform procedures that are overly
           subjective and possibly open to varying interpretations.
       •   The auditor must determine that the subject matter to which the
           procedures are to be applied can be reasonably measured.
       •   The auditor may not apply the concept of materiality to any findings
           unless the definition of materiality has been agreed to.

       Agreed-Upon Procedures Reporting Requirements. The AICPA
standards as incorporated in GAS 5.36 require that reports on agreed-upon
procedures contain several elements including the following:

       •   a list of the procedures performed and related findings;
       •   a description of any agreed-upon materiality limits;
       •   a statement that the auditor was not engaged to and did not conduct an
           examination or audit of the subject matter, the objective of which
           would be the expression of an opinion; and
       •   any reservations or restrictions concerning procedures or findings such
           as restrictions or limitations on the performance of the agreed-upon
           procedures.

DCAA Guidance on Agreed-Upon Procedure Engagements. The CAM 10-
1000, “Reports on the Application of Agreed-Upon Procedures,” does not address
the use of materiality terms in reporting or the necessity for a description of any
agreed-upon materiality limits to be included in the report if such terms are used.

The AICPA standards address materiality in reporting the results of an agreed-
upon procedures engagement as follows:
           The practitioner should report all findings from application of agreed-upon
           procedures. The concept of materiality does not apply to findings to be
           reported in an agreed-upon procedure engagement unless the definition of
           materiality is agreed to by specified parties. Any agreed-upon materiality
           limits should be described in the practitioner’s report.

In addition to being silent on the use of materiality limits, the guidance in
CAM 10-1009, “Results of Applications of Agreed-Upon Procedures,” does not
clearly distinguish between reporting the results of findings directly associated
with the performance of the agreed-upon procedures and reporting information
unrelated to the actual agreed-upon procedures but considered to possibly have an
effect on the information related to the results of the agreed-upon procedures.

The guidance in CAM 10-1009 a. “Disclaimer of Opinion,” states that when the
application of agreed-upon procedures discloses significant deficiencies such as
inadequate cost or pricing data, internal control weaknesses, or significant
noncompliances with Federal Acquisition Regulations (FAR) or CAS, the auditor
should identify the location in the report that discusses the significant deficiency.
The guidance goes on to provide examples of disclaimers of opinion that the
                                           9
auditor can use when the application of the agreed-upon procedures discloses no
significant inadequate information and no noncompliances with FAR or CAS, or
discloses significant noncompliances with FAR or CAS. Also, CAM 10-1009 c.
“Cost Realism,” directs the auditor to include an exhibit summarizing understated
rates or costs when significant rates or costs are found to be underbid during cost
realism agreed-upon procedures. The auditor could construe this guidance to
mean that in reporting the results of an application of agreed-upon procedures
engagement, the materiality of a finding should be considered, only significant
findings should be disclosed, or terms of materiality such as significant are
acceptable.

In addition, the AICPA provides direction on reporting information that the
auditor becomes aware of during the performance of an agreed-upon procedure
engagement. The AICPA 2.40, “Knowledge of Matters Outside Agreed-Upon
Procedures,” states that information that contradicts the subject matter or written
assertions and is brought to the auditor’s attention by means other than the
performance of the agreed-upon procedures should be included in the report. For
example, when a FAR, CAS noncompliance, or a material internal control
weakness exists, the auditor should include this information in the agreed-upon
procedures report. In contrast to reporting the results of the agreed-upon
procedures, when reporting this additional information, the auditor would
consider the materiality or significance of the noncompliance or weakness.

Therefore, DCAA guidance in CAM 10-1009, “Results of Applications of
Agreed-Upon Procedures,” needs to be revised to better provide guidance on the
difference between reporting the actual results of the agreed-upon procedures and
reporting information that is not a result of the performance of the agreed-upon
procedures but that may have an impact on decisions made based on the results of
the agreed-upon procedure engagement. The current DCAA guidance could
confuse the auditor as to when it is acceptable to use terms of materiality in
reporting. To comply with the standards for agreed-upon procedures, findings
related to the performance of the agreed-upon procedures should be presented
fully and objectively without the auditor’s consideration of materiality. However,
the auditor would report other information such as internal control weaknesses
only when significant or material.

Results of the IG DoD Review of DCAA Agreed-Upon Procedures
Engagement. We reviewed the reports for the nine agreed-upon procedure
assignments that DCAA tested. Eight of the reports had reporting deficiencies.

   •   Five reports either stated or implied an opinion by making statements such
       as “no material discrepancies were found;” “the review disclosed
       insignificant errors; therefore, the computation is reasonable;” “we do not
       consider this a significant noncompliance;” “the contractor’s
       noncompliance did not result in a significant adverse impact;” and “in our
       opinion, the amount was insignificant.” Using these terms also imply that
       the auditor considered the materiality of the findings; however, none of
       the reports described the agreed-upon materiality limits the auditor used.

   •   Three reports used the words “audit,” “audit evaluation,” and “audit
       adjusted,” implying that an audit had been performed.

                                    10
                •    Two reports, described the procedures used in vague terms such as “other
                     documentation” and “other accounting reports and schedules.”

                •    One report listed procedures that did not have measurable criteria, such as
                     “obtain, gather, and request information.”

                •    One report did not provide an explanation or include a restriction section
                     for why all procedures listed were not performed.

            The identified deficiencies represent significant reporting issues that resulted in
            GAS noncompliances requiring immediate correction. Therefore, DCAA needs
            to revise CAM 10-1000 and the related audit guidance to implement the GAS and
            AICPA standards for reporting on the application of agreed-upon procedures.
            Additionally, headquarters Quality Assurance Division, should further adapt or
            modify the DCAA Checklist to properly evaluate agreed-upon procedures
            assignments for compliance with GAS and the applicable AICPA standards.
            Otherwise, the DCAA quality control system cannot provide reasonable assurance
            that DCAA has either adopted and is following applicable auditing standards or
            has established and is following adequate audit policies and procedures for
            agreed-upon procedures assignments.


Performing Review of Accounting System Survey Assignments
            DCAA did not identify an inconsistency between standard audit program (SAP)
            guidance for performing accounting system surveys and the set-up instructions for
            these assignments in the DCAA Audit Planning and Performance System
            (APPS)11. More specifically, APPS excludes the financial condition risk
            assessment section of the accounting system survey standard audit program,
            “Audit Program for Pre-award Surveys and Accounting System Surveys at
            Nonmajor Contractors” (NMAPSYS), when the section may have been required.
            We reviewed two accounting system survey assignments that DCAA did not
            review. We identified the inconsistency during our review of one of those
            assignments.

            Standard Audit Program Guidance for Performing Accounting System
            Survey Assignments. The preliminary audit guidance states that the section on
            risk assessment from the SAP on financial capability reviews, “Audit Program for
            Detailed Financial Condition Risk Assessment and Financial Capability Audit”
            (APFINCAP), should be used to assess the financial condition of the contractor.
            Our review of one audit noted that the working papers contained no
            corresponding




11
      The APPS is the electronic working paper software that implements the DCAA policy to prepare
     working papers in electronic format to the maximum extent possible. It is a Windows-based software
     application that includes audit programs and audit report shells for the majority of DCAA audits. It also
     generates templates for standard working paper documentation.

                                                        11
            audit steps to address this assessment. In addition, the risk assessment section
            from APFINCAP was not included in the audit program. The DCAA SAP for
            accounting system surveys, version 3.11 dated April 2002, states:

                         If there is prior audit history for this contractor, a financial capability
                         risk assessment should have previously been performed. If the risk
                         assessment is still current (performed within the previous twelve
                         months), it can be used to satisfy this section of the audit program. If
                         the financial capability risk assessment is not current or if one was
                         never performed for this contractor, use the risk assessment section of
                         the APFINCAP audit program to assess risk.

            Setting Up an Accounting System Survey Assignment in APPS. When setting
            up an accounting system survey assignment using APPS Version 4.3.12,12 APPS
            prompts the auditor to answer questions about the scope of the review. Based on
            the answers, APPS includes or excludes sections of the SAP. For financial
            capability risk assessments, APPS asks the auditor “has a pre-award financial
            capability review been requested by the contracting officer?” The auditor would
            answer “no” to this question if there were no request by the contracting officer.
            When this question is answered “no,” a second question in APPS is generated
            asking, “do you want to perform a limited scope pre-award or interim contract
            review anyway?” If the auditor answers “yes,” the program generates the audit
            steps for performing a financial capability risk assessment. If the auditor answers
            “no,” the APPS automatically excludes the financial capability risk assessment
            section of APFINCAP when the working paper package is generated and the
            auditor is not prompted to perform any further work in this area. CAM 5-202.1,
            January 2003 edition, states that “when a request for a pre-award survey is not
            specific as to the type of financial data to be evaluated, contact the requester for
            clarification and coordination.” For the APPS generated working paper package
            to be consistent with CAM guidance on conducting an accounting system survey,
            the auditor should be prompted to contact the contracting officer to determine
            whether a financial capability risk assessment is required.

            DCAA Action to Correct Accounting System Survey Guidance. DCAA
            headquarters Quality Assurance Division issued interoffice memorandum, “Need
            for Code 17740 APPS Revision to Increase Field Auditor Compliance with
            Agency Policy Covering Performance of Financial Capability Risk Assessments,”
            to the DCAA headquarters Auditing Standards Division on February 14, 2003.
            The memorandum addresses revising the wording of the APPS prompt to ensure
            that financial capability risk assessments are performed as part of an accounting
            system survey when appropriate and in compliance with CAM guidance. In
            response to the above tasking, the DCAA headquarters Auditing Standards
            Division issued an interoffice memorandum, “Need for Code 17740 APPS
            Revision to Increase Field Auditor Compliance with Agency Policy Covering
            Performance of Financial Capability Risk Assessments,” to the DCAA
            headquarters Quality Assurance Division on April 14, 2003. The DCAA
            headquarters Auditing Standards Division stated that the question prompt would
            be removed from the APPS set up for accounting system survey assignments. In

12
      APPS Version 4.3.12 is the version of APPS that we used to identify the deficiency. This is the same
     version of APPS that was used by the DCAA auditor to generate their working paper package.

                                                        12
    addition, separate audit programs would be developed for pre-award and post-
    award accounting surveys. The pre-award accounting system survey will include
    a step for the auditor to contact the requester when a financial capability risk
    assessment is not requested to determine whether a financial capability risk
    assessment is required. The APPS revision was fielded in the July 2003 version
    of APPS.


Summary
    The goal of a quality assurance program is to assess whether an organization
    carries out its work in accordance with GAS and established policies and
    procedures. The purpose of reviewing a quality assurance program is to
    determine whether the external reviewer can rely on the reports produced. To
    accomplish this, the quality assurance program needs to include all significant
    areas in the scope of their review. This will allow for proper identification and
    reporting of significant noncompliances and timely implementation of corrective
    actions. Once the issues discussed above are addressed and appropriate corrective
    actions are implemented, DCAA should have reasonable assurance that its quality
    assurance program is operating effectively and that its internal quality control
    system provides reasonable assurance that DCAA is complying with all
    applicable standards, policies, and procedures.

Management Comments on the Finding and Oversight
 Response
    Management Comments. DCAA stated that the DCAA Report Quality
    Checklist has questions covering agreed-upon procedures reporting and is
    incorporated into the DCAA quality assurance checklist. DCAA stated that the
    quality assurance checklist questions from the PCIE Guide addressing the
    GAGAS for audit fieldwork have not been sufficiently modified by either the
    PCIE or DCAA to cover the performance of agreed-upon procedures.

    Oversight Response. We agree that the quality assurance checklist questions on
    fieldwork need to be modified to address agreed-upon procedures engagements.
    However, although the DCAA Report Quality Checklist has questions specifically
    for agreed-upon procedure reports, the questions only address whether specific
    language in particular paragraphs are in accordance with the DCAA CAM
    guidance. The questions do not require a comprehensive review of the report to
    ensure that the intent of agreed-upon procedure reporting guidance and standards
    are met. Therefore, the report quality checklist was not sufficiently modified to
    identify noncompliances with GAGAS and DCAA guidance.




                                       13
Recommendations, Management Comments, and Oversight
  Response
    We recommend that the Director, Defense Contract Audit Agency:

           1. Consider risk factors other than percentage of audit workload
    when selecting what type of audit assignments to review during the next 3-
    year cycle, especially for “all other” audits.

    Management Comments. DCAA concurred in principle with the
    recommendation. DCAA plans to formally structure and document its
    identification and treatment of applicable risk factors and coordinate the Quality
    Assurance review with the IG DoD.

    Oversight Response. We accept the proposed corrective actions as meeting the
    intent of the recommendation.

           2. Develop a universe of key Defense Contract Audit Agency
    requirements and procedures as required by the Defense Contract Audit
    Agency Contract Audit Manual that impact the administration and planning
    of Defense Contract Audit Agency assignments.

    Management Comments. DCAA concurred.

           3. Determine that Field Audit Office managers are able to implement
    the key administrative and planning processes by using the existing
    management information system.

    Management Comments. DCAA concurred.

          4. Revise guidance for reporting on application of agreed-upon
    procedures to comply with applicable Government Auditing Standards.

    Management Comments. DCAA concurred.

            5. Revise internal quality assurance checklist questions or criteria to
    reflect applicable Government Auditing Standards for agreed-upon
    procedure assignments.

    Management Comments. DCAA concurred.




                                        14
Appendix A. Scope and Methodology
   Review of DCAA Quality Assurance Program. An audit organization’s
   internal quality assurance program is an integral part of its overall management
   program. We based our review of the DCAA quality assurance program on the
   GAS relating to quality controls; the General Accounting Office GAO/OP-4.1.6,
   “An Audit Quality Control System: Essential Elements,” August 1993; the PCIE
   “Guide for Conducting External Quality Control Reviews of the Audit Operations
   of Offices of Inspector General,” January 2002; DCAA strategic plan goals and
   objectives; and DCAA policies and procedures in force from October 1998
   through August 2002. We reviewed the status of the DCAA quality assurance
   program, including improvements and enhancements that DCAA made as a result
   of IG DoD Report No. D-2002-6-001, “Defense Contract Audit Agency Quality
   Assurance Program,” December 6, 2001, IG DoD Report No. D-2002-6-007,
   “Defense Contract Audit Agency Quality Assurance Review of Internal Control
   System Audits,” August 6, 2002, and IG DoD Report No. D-2003-6-003,
   “Defense Contract Audit Agency Quality Assurance Review of Incurred Cost
   Audits,” December 20, 2002. In addition, we reviewed the FY 2001 DCAA
   quality assurance review of “all other” audits. Specifically, we reviewed the:

       •   FAO and assignment selection process;

       •   DCAA documentation files for all of the 17 FAOs visited;

       •   17 Memorandums for Record (MFRs); and

       •   corrective actions that DCAA headquarters, the regions, and Field
           Detachment had either completed or proposed.

   We visited two FAOs (the Tampa Bay Branch Office in Florida and the Antelope
   Valley Branch Office in California) to both retest assignments that DCAA
   reviewed and review additional assignments that DCAA did not review to test its
   work and conclusions. We also reviewed assignments at one FAO that DCAA
   did not review (the Baltimore Branch Office in Maryland) to determine whether
   the systemic noncompliances DCAA identified existed at FAOs that DCAA did
   not review. In addition, we determined whether other systemic issues existed that
   DCAA did not identify in the internal quality assurance review. We discussed the
   quality assurance review process and the results of our review with DCAA
   officials to help us determine how much we could rely on the process when
   conducting our oversight review. Further, we reviewed briefing charts
   summarizing review results that the DCAA headquarters Quality Assurance
   Division presented to the ESC and meeting minutes and action items that resulted
   from ESC meetings and decisions relating to the DCAA quality assurance
   program and the quality assurance review of “all other” audits. We conducted
   this oversight review from August 2002 through September 2003 in accordance
   with IG DoD standards.

   IG DoD Oversight of DCAA. Under section 8(c)(6), title 5, United States Code,
   Appendix 3, the Inspector General Act of 1978, as amended, the IG DoD is
   responsible for monitoring and evaluating adherence of DoD auditors to internal

                                      15
           audit, contract audit, and internal review principles, policies, and procedures. The
           office within the IG DoD responsible for conducting independent oversight
           reviews of DCAA is the Office of the Deputy Inspector General for Inspections
           and Policy, Assistant Inspector General for Audit Policy and Oversight. As part
           of that responsibility, Audit Policy and Oversight evaluates the quality assurance
           reviews that the DCAA headquarters Quality Assurance Division and the
           Regional Quality Assurance Divisions (RQAs) perform. Audit Policy and
           Oversight uses the PCIE Guide as a tool when conducting oversight reviews of
           the quality assurance reviews.

           Evaluation of Results of the FY 2001 Quality Assurance Review of “All
           Other” Audits. To evaluate the status of the DCAA quality assurance program,
           we reviewed DCAA policies and procedures and interviewed DCAA headquarters
           quality assurance staff to determine the procedures established to conduct quality
           assurance reviews as well as the improvements and enhancements DCAA
           implemented as a result of IG DoD Report No. D-2002-6-001, IG DoD Report
           No. D-2002-6-007, and IG DoD Report No. D-2003-6-003. To evaluate the
           results of the FY 2001 quality assurance review of “all other” audits, we reviewed
           the:

                •   ESC briefing charts and meeting minutes;

                •   MFRs;

                •   completed DCAA Checklists;

                •   documentation supporting significant deficiencies that DCAA found; and

                •   corrective actions DCAA completed or proposed.

           We reviewed a total of 25 assignments. We retested 6 assignments and reviewed
           11 assignments that DCAA did not review at 2 FAOs that DCAA visited. In
           addition, we visited one FAO that DCAA did not visit during the quality
           assurance review of “all other” audits and reviewed eight additional assignments.

           Use of Computer-Processed Data. We relied on computer-processed data from
           the DCAA Management Information System (DMIS). Specifically, we used
           information from the “Analysis of World” report for FY 2002* as an aid in our
           selection of FAOs to visit and assignments to review. In addition, DCAA
           provided data from the DMIS summarizing the hours expended completing the
           assignments, dollars examined, and questioned costs. We did not perform tests of
           system general and application controls to confirm the reliability of the data
           because errors would not have significantly affected our selection of FAOs or
           assignments. Therefore, not evaluating the controls did not affect the results of
           the review.




*
    The “Analysis of the World” report for FY 2002 was as of September 5, 2002.

                                                    16
Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued five reports discussing the DCAA Quality Assurance
    Program. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.



IG DoD
    IG DoD Report No. D-2003-6-003, “Defense Contract Audit Agency Quality
    Assurance Review of Incurred Cost Audits,” December 20, 2002

    IG DoD Report No. D-2002-6-007, “Defense Contract Audit Agency Quality
    Assurance Review of Internal Control System Audits,” August 6, 2002

    IG DoD Report No. D-2002-6-005, “Defense Contract Audit Agency Regional
    Quality Assurance Review of the Incurred Cost Sampling Initiative,” April 16,
    2002

    IG DoD Report No. D-2002-6-001, “Defense Contract Audit Agency Quality
    Assurance Program,” December 6, 2001

    IG DoD Report No. D-2000-6-010, “External Quality Control Review of the
    Defense Contract Audit Agency,” September 27, 2000




                                       17
Appendix B. Structure of DCAA Quality
            Assurance Program and Quality
            Control System

Policies on Quality Control Systems and Quality Assurance
  Reviews
     GAS. The GAS are standards for audits that are performed on Government
     organizations, programs, activities, and functions. The standards also apply to
     audits of Government assistance that contractors, nonprofit organizations, and
     other non-Government organizations receive. GAS 3.31 requires that, “Each
     audit organization conducting audits in accordance with these standards should
     have an appropriate internal quality control system in place.” In addition, GAS
     requires that an organization’s internal quality control system provides reasonable
     assurance that the organization has adopted and follows applicable auditing
     standards and has established and follows adequate audit policies and procedures.
     GAS states that the nature and extent of an organization’s internal quality control
     system depends on factors such as size, the degree of operating autonomy among
     offices and personnel, the nature of the work, organizational structure, and
     appropriate cost/benefit considerations. Therefore, the internal quality control
     systems that organizations establish will vary, as will the extent of the
     documentation.

     PCIE Guide. The PCIE Guide reiterates the guidance in GAS and provides
     additional guidance on the internal quality control system as well as guidance for
     conducting quality assurance reviews. The PCIE Guide states that an
     organization’s internal quality control policies and procedures encompass, at a
     minimum, the elements of staff qualifications, independence, audit performance,
     and internal review. In addition, the PCIE Guide outlines the characteristics of a
     quality assurance review. Also, the PCIE Guide includes a “Checklist for
     Assessment of Internal Quality Assurance Program [PCIE Appendix C],” which
     can be used as a tool to evaluate an organization’s quality assurance program.

     General Accounting Office Guide. The GAO/OP-4.1.6, “An Audit Quality
     Control System: Essential Elements” (General Accounting Office Guide),
     August 1993, provides guidance that Federal organizations can use to design or
     improve their internal quality control systems. The General Accounting Office
     Guide states that a quality control system should define principles, policies, and
     procedures that will achieve the consistent quality of work an organization
     expects. In addition, an appropriate quality control system identifies those factors
     that could jeopardize the quality of an audit and establishes processes or
     procedures that promptly identify and correct problems before they occur.




                                          18
DCAA Internal Quality Control System
        The DCAA internal quality control system is implemented at all levels of the
        organization and is multifunctional, covering elements of vulnerability
        assessment, internal control review, external audit followup,B-1 audit quality
        review, and management improvement efforts. As of September 30, 2002, DCAA
        is organizationally divided into a headquarters, 5 regions, Field Detachment, and
        79 FAOs. DCAA considers all organizational layers to be part of its internal
        quality control system.

        DCAA-Wide Quality Control System. The DCAA-wide quality control system
        is defined in the CAM and in DCAA regulations and instructions. DCAA-wide
        quality controls include use of standard audit programs, standard audit report
        formats, and standard checklists for reviewing audit reports; fact-finding visits by
        DCAA headquarters program managers who use tools such as centrally directed
        surveys and internal checklists; headquarters desk reviews; onsite reviews of
        internal systems by DCAA specialists such as industrial engineers; and reviews
        by peers outside the organization being reviewed. In addition, the DCAA quality
        assurance program is an integral part of the quality control system.

        Regional and Field Detachment Quality Control Systems. Regional quality
        control systems implemented by the regional directors and managed by the
        RQAs, including the Field Detachment Quality Assurance Division, are an
        integral part of the DCAA-wide quality control system. Regional policies and
        procedures set forth quality controls that include delegation of authority;
        separation of duties; accountability of resources; recording, documenting, and
        resolving audit findings; pre-issuance reviews of sensitive or significant audit
        reports by regional audit managers; post-audit quality reviews by the regional
        audit manager; and monthly post-issuance review of audit reports. The RQAs
        also perform compliance reviews as requested by regional directors.

        FAO Quality Control System. Within each region, DCAA has between 10 and
        16 FAOs. The FAOs are responsible for implementing a sound quality control
        system based on headquarters and regional guidance. Peer review processes are
        an integral part of the FAO-level quality control system. FAO quality controls
        include mandatory pre-issuance review of audits by supervisory auditors and
        pre-issuance reviews of sensitive or significant audits by FAO managers. The
        results of peer reviews are used to identify process improvements within FAOs
        and are forwarded to the region and headquarters for identifying trends
        throughout DCAA. FAOs may institute other quality control procedures, such as
        participatory work teams and pre-issuance review of audit reports.


DCAA Quality Assurance Program
        MRD 98-P-147(R), “Establishment of Quality Assurance Division,” October 23,
        1998, established a Quality Assurance Division at DCAA headquarters and in
B-1
    External audit followup includes following up on findings and recommendations in GAO and IG DoD
  reports.

                                                 19
each of the five regions and Field Detachment. The headquarters, regional, and
Field Detachment Quality Assurance Divisions are responsible for developing
and executing an agency-wide program to provide reasonable assurance that
DCAA has adopted and follows applicable auditing standards and has established
and follows adequate auditing policies and procedures. Additional functions
include assessing the need for new or revised guidance, supporting external
quality control reviews, accompanying external auditors on field visits, serving on
process action teams, assisting in responding to inquiries, and identifying
“best-in-class” processes for use throughout DCAA.

Executive Steering Committee. The ESC is responsible for providing overall
management and direction for the DCAA total quality management program. In
addition, the ESC is responsible for establishing the DCAA vision and strategic
goals; identifying quality improvement projects; evaluating quality improvement
projects suggested by others; approving or disapproving DCAA-wide process
action teams; and maintaining active communication and coordination with the
quality management boards regarding their process action team activities and
recommendations. Committee members include the Director, Deputy Director,
assistant directors of the headquarters components, directors of the five regions
and Field Detachment, and General Counsel. The ESC meets quarterly and is
briefed on issues such as the strategic plan, advanced degrees and certifications,
procurement plans, and the DCAA quality assurance program. If necessary, the
ESC establishes action items for tasks to be completed or information to be
provided. The Executive Officer maintains a list of action items for the Director,
DCAA.

Headquarters Quality Assurance Division. The DCAA headquarters Quality
Assurance Division performs formal quality assurance reviews based on the PCIE
Guide and other quality assurance-related reviews throughout DCAA. When
conducting the reviews, the Quality Assurance Division assesses compliance with
applicable auditing standards and audit policies and procedures, the need for
enhanced or new audit policy guidance, and best practices for use throughout the
agency.

Regional Quality Assurance Divisions. The RQAs, including Field
Detachment, assist the DCAA headquarters Quality Assurance Division in
performing quality assurance reviews and other quality assurance projects
throughout the agency. At the direction of respective regional directors, the
RQAs also perform regional quality assurance reviews and projects to assess
compliance with applicable policies and procedures, the need for enhanced or
new audit guidance, and best practices for regional use. In addition, the RQAs
perform special reviews as required by the regional directors. When performing
regional quality assurance reviews and special reviews, the RQA chiefs report
directly to the directors of their respective regions. When performing
agency-wide reviews under the direction of the headquarters Quality Assurance
Division, the RQA staff assigned to the review report indirectly to the chief of the
headquarters Quality Assurance Division.

DCAA Quality Assurance Reviews. Beginning in FY 1999, DCAA established
a 3-year cycle for conducting quality assurance reviews. DCAA determined that
its workload fell into four major categories—forward pricing assignments,
internal control reviews, incurred cost audits, and all other audits. DCAA decided
                                     20
    to conduct separate quality assurance reviews for each of the major audit
    categories. In addition, DCAA conducted a quality assurance review of auditor
    independence and qualifications. DCAA completed all four reviews and briefed
    the ESC on the last one in June 2002.


Status of the DCAA Quality Assurance Program Review
  Process
    The PCIE Guide describes the characteristics that an organization’s quality
    assurance program should integrate into any review of its quality control system.
    Those characteristics include formal quality assurance review procedures,
    adequate staffing, independence, sufficient evidence, thorough scope of review,
    written results, written responses, and an effective followup process. In IG DoD
    Report No. D-2002-6-001, we initially discussed the DCAA implementation of
    the characteristics during the DCAA quality assurance review of forward pricing
    assignments. In our successive reports on the DCAA Quality Assurance Program,
    we reassessed the status of the characteristics.

    Formal Quality Assurance Review Procedures. Organizations conducting
    internal quality assurance reviews should have formal policies and procedures.
    DCAA completed five internal quality assurance reviews without preparing
    formal policies and procedures for conducting the reviews. DCAA should have
    had formal policies and procedures so that an external reviewer could evaluate the
    adequacy of the policies and procedures as part of the overall oversight review of
    the DCAA quality assurance program. DCAA issued DCAA Instruction
    No. 7640.20, “DCAA Audit Quality Assurance Program,” on December 19, 2002.
    We did not verify implementation of these policies and procedures because they
    were issued after DCAA completed their quality assurance review of “all other”
    audits. Not reviewing these policies and procedures would not have an adverse
    affect on the results of our evaluation.

    Staffing. The PCIE Guide recommends that review teams be led by a senior
    manager and that the reviewers have an appropriate level of experience.
    IG DoD Report No. D-2002-6-001 states that DCAA had appropriately staffed its
    headquarters and regional quality assurance divisions. However, DCAA
    established the headquarters Quality Assurance Division primarily to develop and
    execute an agency-wide quality assurance program. DCAA subsequently added
    responsibilities, such as providing assistance in preparing the DCAA FY 2000
    financial statements. To ensure that the quality assurance program reviews are
    accomplished during each 3-year cycle, DCAA agreed to continue to monitor the
    work assigned to the headquarters Quality Assurance Division. DCAA met their
    June 2002 goal for completing their first 3-year cycle of quality assurance
    reviews.

    Independent Review. The PCIE Guide recommends that the review team leader
    report to an individual or a level within the organization that will ensure
    independence and objectivity of the performance of quality assurance reviews.
    However, when DCAA established the process for assigning auditors to the
    quality assurance reviews, DCAA decided that the Field Detachment Quality
    Assurance Division would conduct the quality assurance review of Field
                                        21
           Detachment audits. DCAA decided not to independently assess Field Detachment
           based on workload, security considerations, and the fact that DCAA considers the
           Field Detachment Quality Assurance Division independent because it is separate
           from Field Detachment audit operations. However, the Field Detachment quality
           assurance staff is located at Field Detachment FAOs throughout the continental
           United States. The quality assurance staff is not physically separate from Field
           Detachment audit operations. In response to IG DoD Report No. D-2002-6-001,
           DCAA modified the quality assurance review process by requiring the Deputy
           Director, DCAA to select Field Detachment FAOs for review, to review and sign
           draft and final MFRs, and to review working papers if necessary. During its
           headquarters-led quality assurance review of “all other” audits, DCAA fully
           implemented this process.

           Evidence. The PCIE Guide recommends that competent evidence be gathered
           and, where applicable, sufficiently tested to determine whether the organization is
           in compliance with applicable auditing standards, policies, and procedures.
           DCAA developed an understandable and methodical process for selecting which
           FAOs and “all other” audit assignments to review. DCAA selected FAOs that
           had not previously been visited under the reviews of forward pricing, internal
           control, and incurred cost audit assignments. However, except for Field
           Detachment, DCAA did not include progress payments in the universe of
           assignments that could be selected for review and did not review either the
           cycling of financial condition risk assessments nor the selection process for post-
           award reviews. See the Finding for the details of insufficient consideration by
           DCAA of the risks associated with progress payments, cycling of financial
           condition risk assessments, and selection process for post-award reviews. DCAA
           documented the results of the quality assurance review of “all other” audits by
           completing a DCAA Checklist and Supplemental Checklist for each of the
           121 “all other” audit assignments reviewed, preparing exit conference notes, and
           writing an MFR summarizing the results of the review for each of the 17 FAOs
           visited.

                   Documentation Supporting the DCAA Checklists. During our
           evaluation of the DCAA quality assurance review of forward pricing assignments,
           IG DoD Report No. D-2002-6-001, we determined that for only 6 out of the
           21 (29 percent) DCAA Checklists that we retested, the DCAA quality assurance
           reviewers had adequately cross-referenced to applicable FAO working papers or
           provided appropriate notes in the comment column. In response to that report,
           DCAA modified several questions on the DCAA ChecklistB-2 used during the
           quality assurance review of “all other” audits. We reviewed the checklists
           prepared at two pilot sites for the review of “all other” audits during our
           evaluation of the DCAA quality assurance review of incurred cost audits. In
           IG DoD Report No. D-2003-6-003, we reported that DCAA was providing more
           detailed documentation for each checklist answer. During the current review, we
           determined that six out of the six (100 percent) DCAA Checklists that we retested
           provided adequate narrative or FAO working paper references for the checklist
           answers. DCAA Checklist documentation has improved to a point where an
           external reviewer can understand the rationale behind the quality assurance
           reviewers’ answers.

B-2
      DCAA makes changes to the DCAA Checklist needed.

                                                22
        Cross-Referencing the Quality Assurance Review Reports. The
DCAA quality assurance staff has continued to improve the cross-referencing of
the MFRs to the supporting quality assurance documentation. DCAA wrote an
MFR for each of the 17 FAOs reviewed. The MFRs summarize the major
findings of the quality assurance reviews at the FAOs and include an enclosure
that summarizes the DCAA Checklist answers by reviewed assignment. Each
MFR identifies the “all other” audit discussed and the DCAA Checklist question
identifying the noncompliance. Because of the changes that DCAA made to the
DCAA Checklist questions and because the DCAA reviewers are providing
explanations and working paper references as support for answers, we have a
clear audit trail from the MFRs to the DCAA Checklist answers to the auditor
working papers.

Written Results. The PCIE Guide recommends that written results be prepared
for each review that includes recommendations for corrective actions when
applicable. DCAA prepared MFRs that summarized the results of the review at
each FAO and provided the MFRs to the FAO manager and the regional director.
The MFRs also functioned as the summary working paper. DCAA summarizes
the results of the review and the proposed corrective actions and briefs the ESC.
DCAA considered the ESC briefing to be its final report. DCAA implemented
that approach in an acceptable manner for the first two headquarters-led quality
assurance reviews (forward pricing and internal control reviews). However, IG
DoD Report No. D-2003-6-003, identified deficiencies in the process.
Specifically, DCAA prepared the final report to the ESC before completing the
summary working papers (MFRs). As a result, the final report did not adequately
summarize the final results of the review. DCAA determined that the appropriate
corrective action was to designate the briefing provided to the IG DoD or any
other external organization as the final report. In addition, DCAA has agreed that
if the results presented to the ESC are substantially different from the results
presented to the IG DoD in the final report, then DCAA will provide a revised
briefing to the ESC. DCAA completed the quality assurance review of “all other”
audits and briefed the ESC in June 2002. All MFRs were issued prior to the
IG DoD briefing. The revised approach met the intent of the characteristic
outlined in the PCIE Guide. However, DCAA could enhance its program by
issuing a formal, written summary report for each quality assurance review
performed.

Written Response. The PCIE Guide recommends that written responses be
provided on each recommendation, which should include proposed corrective
actions or corrective actions already taken. Each FAO that DCAA reviewed
provided written responses to draft trip reports, which DCAA considered and
included in final trip reports. Agreement on what deficiencies need to be
addressed is the first step toward improving audit performance. That approach
incorporates the characteristic outlined in the PCIE Guide. DCAA used that
approach for all the headquarters-led quality assurance reviews during the first
cycle.

Followup Procedures. The PCIE Guide recommends that procedures be
established for resolution and followup of recommended corrective action. A
good followup system should provide information on what improvements were
made as a result of the work and whether the improvements achieved the desired
result. Determining actions that were taken on recommendations requires active
                                    23
         monitoring of the status of recommendations. DCAA has two separate followup
         processes for monitoring the status of actions taken as a result of issues found
         during the headquarters-led quality assurance reviews. If the ESC adopts a
         corrective action and assigns the action to a headquarters element, that component
         is responsible for followup. The ESC and the headquarters Quality Assurance
         Division are responsible for monitoring the followup. If the ESC adopts a
         corrective action and assigns it to the regions for implementation or followup,
         DCAA relies on the regional directors to independently ensure that corrective
         action is taken. The headquarters Quality Assurance Division performs no
         additional followup action until the next quality assurance review of the same
         type audit unless otherwise specifically directed by DCAA management.
         However, for the quality assurance reviews of incurred cost audits and “all other”
         audits, the ESC is requiring the regions to independently follow up on each others
         corrective action to ensure that the proposed corrective actions were
         implemented. For Field Detachment FAOs rated “less than high,” the Deputy
         Director, DCAA was to oversee and approve the followup reviews. That
         approach was implemented on both quality assurance reviews.

         Scope of Headquarters-Led Quality Assurance Reviews. We raised concerns
         in IG DoD Report No. D-2002-6-001 about the scope of the DCAA
         headquarters-led quality assurance reviews related to the review of FAOs,
         assessment of due professional care, review of qualifications and independence,
         and assessment of the DCAA quality control system. DCAA took corrective
         action to improve the characteristics.

                 Review of FAOs. All of the FAOs issue audit reports; however, DCAA
         never planned to ensure the review of every FAO in a given three-year cycle or
         planned to include the two overseas FAOsB-3 in the headquarters-led quality
         assurance reviews. DCAA notified us on March 30, 2001, that they would begin
         to include both of the overseas FAOs in the universe of offices to be potentially
         selected for future reviews. DCAA stated that, under the DCAA methodology for
         conducting the PCIE-based reviews and given the DCAA revised position relating
         to the two overseas offices, every FAO will likely be covered during the first and
         subsequent review cycles. DCAA included the European Branch Office in the
         internal quality assurance review of all other assignments. In addition, DCAA
         Western Region Quality Assurance Division performed a desk review of financial
         capability audits at the Pacific Branch Office.

                 Assessment of Due Professional Care. The question on the DCAA
         Checklist that DCAA used for the internal quality assurance reviews of forward
         pricing assignments and internal control system audits did not adequately address
         compliance with due professional care. DCAA took corrective action by
         modifying the March 12, 2001, version of the DCAA Checklist used during the
         internal quality assurance review of incurred cost audits to include the question,
         “Did the auditors exercise due professional care in performing the audit?” to be
         used to assess compliance with due professional care.



B-3
   The European Branch Office is in Germany with suboffices in Saudi Arabia and Israel. The Pacific
  Branch Office is in Japan with suboffices in Hawaii and Korea.

                                                  24
        Qualifications and Independence. The quality assurance review process
that DCAA initially developed included plans to review compliance with the
general standards of qualifications and independence. The plans did not include
testing at the FAO level. Subsequent to the start of the 3-year cycle, DCAA
decided to postpone its review of qualifications—specifically continuing
professional education—until FY 2002 because DCAA was in the process of
revising guidance on continuing professional education requirements. DCAA
completed the review of qualifications and independence and in June 2002 briefed
the ESC.

        DCAA Quality Control System. The DCAA quality assurance reviews
of forward pricing assignments and internal control system audits did not fully
consider regional and FAO quality control policies and procedures. To fully
assess the adequacy of the DCAA quality control system as described in the
CAM, DCAA should have tested compliance with policies and procedures issued
by the regions and the FAOs in addition to DCAA-wide policies and procedures.
However, when completing the DCAA Checklist, the reviewers did not indicate
that they considered anything other than DCAA-wide quality control policies and
procedures. DCAA took corrective action by adding the question, “Were the
quality control procedures, forms, and checklists required by Regional/FAO
policy appropriately completed/complied with?” to the January 2001 version of
the DCAA Checklist. DCAA used the January 2001 version to perform the
quality assurance reviews of incurred cost audits and “all other” audits, the third
and fourth types of audits that DCAA is including in the quality assurance
reviews.




                                    25
Appendix C. “All Other” Assignment Codes and
            Descriptions
   “All Other” Assignment Codes and Descriptions. The table below shows all of
   the assignment descriptions and corresponding codes that DCAA has included in
   the “all other” category. These codes are assigned in DMIS to track assignment
   types.

                     Assignment Description                       5 Digit Code

   Operations Audits – Management Systems                            10501*

   Operations Audits – Labor Systems                                 10502*

   Operations Audits – Material Systems                              10503*

   Operations Audits – Follow-up                                     10601*

   Electronic Data Processing Billing Algorithm                      11530

   Electronic Data Processing Lease vs. Buy                          11540

   Electronic Data Processing Other                                  11590

   Other Material Audits                                             12980

   Labor Cost Charging                                               13500

   Other Labor Audits                                                13980

   Joint Contractor Insurance/Pension Review                         14410

   Final Price Submissions                                           15300

   Contract Audit Closing Statements                                 15400

   Provisional Billing Rates                                         15500

   Limitation of Payments                                            15600

   Terminations                                                      17100*

   Other Claims                                                      17200*

   Progress Payments                                                 17500

   Financial Capability                                              17600*



                                       26
Pre-award Accounting Survey                                    17740*

Cost/Schedule Control System Criteria                           17750

Government Facility Rental Payments                             17800

Contract Funds Status Reporting                                 17850

Other Contract Reports                                          17860

Other Requested Special Audits                                 17900*

CAS Disclosure Statements                                       19100

CAS Noncompliances                                             19200*

CAS Compliance                                                 19400*

CAS Compliance Audits                                        19403-19420

Cost Impact Proposals                                          19500*

Flash Reporting – Estimating                                    24020

Estimating System Follow-up                                     24090

Specific Cost/Rate Information                                  25000

Other System Surveys                                            26000

Post-award Audit                                               42000*



*Audit codes included in DCAA Quality Assurance Review of “All Other”
 Audits.




                                  27
Appendix D. Results of DCAA Quality Assurance
            Review of “All Other” Audits
   Significant Noncompliances. The DCAA quality assurance review of “all other”
   audits identified significant noncompliances with GAS for which DCAA has
   either implemented or initiated corrective action. In the briefing presented to the
   June 2002 ESC, DCAA discussed significant noncompliances related to the
   following GAS standards.

          Due Professional Care. Auditors on 10 (8 percent) of the 121 audits did
   not meet the due professional care standard.

          Quality Controls. Auditors on 24 (20 percent) of the 121 audits did not
   appropriately complete key procedures and forms.

          Planning. Auditors on 16 (13 percent) of the 121 audits did not
   coordinate with report users to document their needs.

          Supervision. On 52 (43 percent) of the 121 audits, supervisory
   involvement was not appropriate and timely to provide for adequate planning, for
   supervisors to be kept informed of significant problems, to ensure that the work
   was adequately performed in accordance with the audit program, and that the
   working papers supported the conclusions in the audit report. In addition, on 35
   (29%) of the 121 audits, supervision was not documented in accordance with
   agency policy.

           Evidence and Working Paper Documentation. Auditors on
   50 (41 percent) of the 121 audits did not adequately document the work
   performed in the working papers. In addition, auditors on 24 (20%) of the 121
   audits did not appropriately obtain and document evidence about the reliability of
   computer-based data.

           Compliance with Laws and Regulations. Auditors on 64 (53 percent) of
   the 121 audits did not assess the risk that noncompliances or illegal acts
   significant to the audit objective could have occurred.

           Reporting. The reports for 15 (12 percent) of the 121 audits did not
   present information in a manner that was accurate, fair, complete, convincing,
   objective, and clear. The reports for 10 (8 percent) of the 121 audits were not
   distributed timely for use by appropriate officials. In addition, the reports for
   9 (7%) of the 121 audits were not signed by an authorized individual.

   In conducting our retesting of assignments reviewed by DCAA and testing of
   additional assignments not reviewed by DCAA, we reached the same general
   conclusions that DCAA reached when they performed the quality assurance
   review. Our concern about how DCAA performed the review of agreed-upon
   procedures and accounting system survey assignments would impact the nature of
   the significant noncompliances DCAA identified and the IG DoD confirmed. See
   Finding for information.

                                        28
Factors Contributing to the Significant Noncompliances. DCAA determined
that a number of factors contributed to the occurrence of the significant
noncompliances. The factors included:

    •   inappropriate use of APPS and SAPs;

    •   modification of working papers after audit report issuance;

    •   no evident or documented connection between risk assessment and scope
        of audit work;

    •   incorrect risk assessments;

    •   supervisors not approving, completing and signing off on working papers
        per CAM and APPS guidelines;

    •   inadequate working paper documentation and cross-referencing;

    •   no requirement in CAM, SAP, or APPS guidance for the auditor to obtain
        and document evidence about the reliability of computer-processed data;
        and

    •   audit step in all SAPs prompting the auditor to document consideration of
        fraud risk.

The factors contributing to the significant noncompliance are related primarily to
either auditors not following DCAA policies and procedures or to inadequate
DCAA policies and procedures.

Corrective Actions. DCAA headquarters, the regions, Field Detachment, and
FAOs implemented or initiated corrective action to prevent the occurrence of the
significant noncompliances in future audits.

        DCAA Headquarters. DCAA headquarters has issued or revised
guidance to address the significant noncompliances identified. The following
actions have been taken:

        •   issuance of new CAM guidance on completing and amending working
            papers;

        •   development of a tailored risk assessment working paper section in
            APPS which was demonstrated to IG DoD on August 8, 2002;

        •   establishment of a strategic plan objective to develop and implement
            incentive program designed to motivate, recognize, and reward
            excellence in supervision;

        •   implementation of agency-wide use of the working paper checklist;

        •   addition of a step in the audit programs that prompts the auditor
            specifically to obtain and document evidence on the reliability of
            computer processed data at non-major contractors;
                                      29
       •   incorporation of a step prompting fraud risk consideration in all the
           applicable SAPs that did not already have the step; and

       •   further revision and enhancement of the risk assessment working paper
           section to facilitate documentation.

        Regions and Field Detachment. The regions and Field Detachment
distributed the systemic findings and guidance reminders. In addition, the regions
and Field Detachment conducted training detailing the significant
noncompliances and what auditors could do to prevent recurrence in the future.

        FAOs. Each FAO was required to implement corrective actions to resolve
the significant noncompliances that the DCAA reviewers found at the FAO. The
regions are required to verify that the FAOs took corrective action and that the
corrective action resolved the significant noncompliances. DCAA is requiring the
regions to prepare close out reports on the implementation of corrective actions at
the FAOs within 60 days of completion or verification of the last corrective
action. The regions expect to complete the close out reports between June 30, and
October 31, 2003.

Timely implementation of corrective actions and assessing whether the corrective
action resolved the significant noncompliances should help ensure that the DCAA
quality assurance program is effective.




                                    30
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Other Defense Organization
Director, Defense Contract Audit Agency




                                          31
Defense Contract Audit Agency (Policy and
Plans) Comments
                                            Final Report
                                             Reference




                                            Revised
                                            Pages i & 3




                      33
Final Report
 Reference




Pages i & 3




               34
     Final Report
      Reference




     Revised
     Pages i & 3




     Page 14




35
36
     Final Report
      Reference




     Revised
     Page 14




37
Team Members
The Assistant Inspector General for Audit Policy and Oversight Directorate,
Office of the Deputy Inspector General for Inspections and Policy of the
Department of Defense prepared this report. Personnel of the Office of the
Inspector General of the Department of Defense who contributed to the report are
listed below.

Wayne C. Berry
Diane H. Stetler
Edward Van Why
Lois J. Wozniak
Catherine M. Schneiter
Donna A. Roberts
